Department of Homeland Security
   Office of Inspector General
           Use of American Recovery and 
 

           Reinvestment Act Funds by the 
 

      Federal Emergency Management Agency 
 

       for the Transit Security Grant Program
 





      American Recovery and Reinvestment Act of 2009
 





OIG-11-18                                                 December 2010
                                                              Office ofInspector General

                                                              U.S. Department of Homeland Security
                                                              Washington, DC 20528




                                                              Homeland
                                                              Security
                                 December 9, 2010


                                          Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audits, inspections, and special reports
prepared as part of our oversight responsibilities for programs, grants, and projects
administered by the department under the American Recovery and Reinvestment Act of
2009.

This report presents information on the status of Recovery Act funds used by the Federal
Emergency Management Agency under the Transportation Security Grant Program and
whether FEMA was administering the Recovery Act funds for the TSGP according to
program plans and requirements.

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                   ~~
                                  Anne L. Richards
                                  Assistant Inspector General for Audits
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Review ................................................................................................................3


    Grant Awards and Project Status ....................................................................................3 


    Tracking Grant Program Performance ............................................................................5 
 


Recommendation .................................................................................................................6
 


Management Comments and OIG Analysis ........................................................................6 
 



Appendixes
  Appendix A:          Purpose, Scope, and Methodology.............................................................7 
 

  Appendix B:          Management Comments to the Draft Report .............................................8 
 

  Appendix C:          Transit Security Grant Program Performance Measures .........................10 
 

  Appendix D:          Major Contributors ...................................................................................11 
 

  Appendix E:          Report Distribution ...................................................................................12 
 


Abbreviations
     DHS                 Department of Homeland Security 

     FEMA                Federal Emergency Management Agency 

     GAO                 General Accountability Office        

     OIG                 Office of Inspector General 

     OMB                 Office of Management and Budget 

     TSA                 Transportation Security Administration                                 

     TSGP                Transit Security Grant Program 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
              The American Recovery and Reinvestment Act of 2009 provided $610
              million to the Federal Emergency Management Agency, of which $150
              million was for the Transportation Security Grant Program. The purpose
              of the Transportation Security Grant Program is to help transit and rail
              operators to protect critical surface transportation infrastructure and the
              traveling public from acts of terrorism, major disasters, and other
              emergencies.

              Our objective was to determine whether the Federal Emergency
              Management Agency administered the American Recovery and
              Reinvestment Act funds for the Transportation Security Grant Program
              according to plans and requirements.

              The Federal Emergency Management Agency is administering the
              Transportation Security Grant Program in accordance with plans and
              requirements. As of September 30, 2009, the agency had obligated 100%
              of the American Recovery and Reinvestment Act funds appropriated for the
              Transportation Security Grant Program by awarding 19 grants. Federal
              Emergency Management Agency reports show that grantees had outlays
              of grant funds of approximately $22 million dollars or approximately 15%
              of funds awarded as of October 4, 2010. Recipients reported to the federal
              government that they had created or retained 215 jobs as June 30, 2010,
              the most recent federal reporting period.

              We are recommending that the Federal Emergency Management Agency
              incorporate systems to collect information necessary to measure the
              effectiveness of the Transportation Security Grant Program.




 Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                       Agency for the Transit Security Grant Program
 


                                          Page 1
Background
                  The American Recovery and Reinvestment Act of 2009 (Recovery Act)
                  appropriated to the Department of Homeland Security (DHS) $2.75 billion
                  for preserving and stimulating economic growth in the United States. Of
                  that amount, the Federal Emergency Management Agency (FEMA)
                  received $610 million, of which $150 million was for Public
                  Transportation Security Assistance and Railroad Security Assistance.
                  Grants for this assistance are funded under FEMA’s Transportation
                  Security Grant Program (TSGP), which is authorized by sections 1406 and
                  1513 of the Implementing Recommendations of the 9/11 Commission Act
                  of 2007 (P.L. 110-53). The Recovery Act requires DHS to obligate the
                  grant funds by September 30, 2010.

                  FEMA awarded grants to eligible transit agencies and railroad carriers
                  (hereinafter referred to as transit agencies) for operational packages and
                  capital projects. Eligible transit agencies may also apply for grants on
                  behalf of law enforcement agencies with dedicated transit bureaus. To be
                  eligible for a grant, transit agencies must either have undergone a security
                  assessment conducted by the Transportation Security Administration
                  (TSA) or developed or updated their security plan within the past 3 years.
                  FEMA and TSA have identified 120 transit agencies in 33 states as
                  eligible for TSGP grants.

                  According to FEMA guidance, operational packages cover activities such
                  as hiring law enforcement officers for K-9 units, installing mobile
                  explosive screening, and hiring antiterrorism teams. FEMA allocated
                  $100 million to finance operational packages. FEMA allocated $50
                  million to finance capital projects for asset hardening, such as reinforcing
                  tunnels and underground facilities, installing surveillance systems, and
                  putting in perimeter security. For both operational and capital projects,
                  FEMA and TSA assessed risk on the basis of threat, vulnerability, and
                  consequence factors.

                  To qualify for operational packages, transit police forces or law
                  enforcement providers must (1) employ at least 100 authorized
                  enforcement positions dedicated to transit security as of January 1, 2009,
                  and (2) limit funding requests to no more than 5% of the force’s current
                  authorized sworn positions. As a prerequisite for capital projects, transit
                  agencies must have certified that the project will begin within 90 days and
                  be completed within 24 months of FEMA’s release of approved grant
                  funds.1

1
 After FEMA approves capital projects, it withholds the release of funds to the grantee until it also
approves, if applicable, plans for historic preservation and/or environmental impact.

    Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                          Agency for the Transit Security Grant Program
 


                                                   Page 2
                  Office of Management and Budget (OMB) Memorandum M-09-15,
                  Updated Implementing Guidance for the American Recovery and
                  Reinvestment Act of 2009, requires federal agencies to submit plans for
                  each program funded by the Recovery Act. The plan must include
                  information on the goals and objectives of the program; kinds and scope of
                  activities to be performed; delivery schedule; measures of program
                  outputs, outcomes, and efficiency; and program monitoring processes.

                  A June 2009 Government Accountability Office (GAO) review of the
                  TSGP2 said that FEMA needed to establish a plan for monitoring the use
                  of grant funds. According to GAO, the plan should show how FEMA
                  would systematically collect data and track grant activities until FEMA’s
                  grant management system can perform those functions, and should include
                  steps and milestones for measuring the effectiveness of the TSGP and its
                  administration.

Results of Review
                  FEMA is administering the Recovery Act TSGP according to plans and
                  requirements. However, it has not yet implemented a process to collect
                  and analyze grant program performance measures identified in its
                  Recovery Act plan for TSGP. FEMA and recipient reports show that
                  grantees have spent approximately $22 million, or 14.76% of total grant
                  awards, and have funded 215 jobs as of October 4, 2010. These matters
                  are discussed in further detail below.

         Grant Awards and Project Status
                  FEMA obligated the $150 million through the award of 19 grants by
                  September 30, 2009. Specifically, FEMA received and rated 15 grant
                  applications for operational packages and awarded grants totaling
                  approximately $78 million. Regarding capital projects, 48 transit agencies
                  submitted proposals. For high-risk capital projects that could be
                  completed with Recovery Act funds alone, FEMA and TSA awarded four
                  grants totaling $72 million3. Table 1 presents TSGP grants awarded with
                  Recovery Act funds.




2
  Transit Security Grant Program, DHS Allocates Grants Based on Risk, but Its Risk Methodology,
Management Controls, and Grant Oversight Can Be Strengthened (GAO-09-491).
3
  FEMA reallocated the remaining $22 million in available operational funds ($100 million less $78
million) to capital projects, thereby increasing the capital funding from $50 million to $72 million.

    Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                          Agency for the Transit Security Grant Program
 


                                                   Page 3
                            Table 1. TSGP Grants Awarded With Recovery Act Funds
                                                                                        Award
                                        Grantee                                  Type         Amount
                    Metropolitan Council of Minneapolis                        Operational   $1,328,700
                    King County, WA, Dept. of Trans.                           Operational    1,906,530
                    National Railroad Passenger Corp. (Amtrak)                 Operational    6,343,500
                    Dallas Area Rapid Transit                                  Operational    1,362,690
                    Metro Transit Authority, Harris County, TX                 Operational    3,040,560
                    Chicago Transit Authority                                  Operational    4,869,000
                    Delaware River Port Authority                              Operational    2,085,000
                    Niagara Frontier Trans.                                    Operational    2,234,070
                    Southeastern Pennsylvania Trans. Authority                 Operational    4,458,870
                    Greater Cleveland Regional Trans. Authority                Operational    1,396,830
                    Northeast Illinois Railroad Corp.                          Operational    1,670,988
                    Metro Atlanta Rapid Transit Authority                      Operational      685,980
                    Metro Trans. Authority of New York                         Operational   35,904,000
                    Puerto Rico Department of Trans.                           Operational      965,193
                    Washington Metro Area Transit Authority                    Operational    9,560,064
                      Subtotal Operational Projects                                          77,811,975

                    Metropolitan Trans. Authority of New York                    Capital*         11,813,686
                    San Francisco Bay Area Rapid Transit District                Capital*          5,143,219
                    The Port Auth. of New York and New Jersey                    Capital*         48,286,592
                    Chicago Transit Authority                                    Capital*          6,944,528
                      Subtotal Capital Projects                                                   72,188,025

                         Total All Projects                                                     150,000,000

                    *
                        Recipients started all capital projects within 90 days of FEMA release of funds.

                  Grant progress in terms of outlays and jobs is not significant. As of
                  October 4, 2010, FEMA reported grantee outlays of approximately $22
                  million, about 14.76% of total project awards. Recipients reported that
                  about 215 jobs were created or retained4 as of the last quarterly reporting
                  period5 ending June 30, 2010. Outlays and jobs are summarized in table 2.




4
  According to OMB Memorandum M-09-15, jobs created are positions that are both created and filled or
previously existing unfilled positions that are filled. Retained positions are previously existing filled
positions that are retained as a result of Recovery Act funding.
5
  Section 1512 of the Recovery Act requires recipients to submit quarterly reports that include information
on funds expended and jobs created and retained.

    Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                          Agency for the Transit Security Grant Program
 


                                                    Page 4
                            Table 2. TSGP – Status of Funds and Jobs
                                                                              Description
                                                                             1
                             Grantee                            Obligation       Outlays1       Jobs2
        Metropolitan Council of Minneapolis                      $1,328,700  $221,038                 5
        King County, WA, Dept. of Trans.                          1,906,530    457,518                5
        National Railroad Passenger Corp. (Amtrak)                6,343,500         03               12
        Dallas Area Rapid Transit                                 1,362,690     39,012                0
        Metro Transit Authority, Harris County, TX                3,040,560    402,473               10
        Chicago Transit Authority                                 4,869,000          0                0
        Delaware River Port Authority                             2,085,000    391,205                8
        Niagara Frontier Trans.                                   2,234,070    388,815                6
        Southeastern Pennsylvania Trans. Authority                4,458,870    843,885               12
        Greater Cleveland Regional Trans. Authority               1,396,830    106,698                3
        Northeast Illinois Railroad Corp.                         1,670,988    361,499                6
        Metro Atlanta Rapid Transit Authority                       685,980          0                0
        Metro Trans. Authority of New York                       35,904,000          0                0
        Puerto Rico Department of Trans.                            965,193          0                0
        Washington Metro Area Transit Authority                   9,560,064 1,058,080                59
        Metropolitan Trans. Auth. of New York                    11,813,686          0                0
        San Francisco Bay Area Rapid Transit District             5,143,219          0                0
        The Port Auth. of New York and New Jersey                48,286,592 17,871,852               89
        Chicago Transit Authority                                 6,944,528          0                0
            Totals                                              150,000,000 22,142,075              215

        1
         As of October 4, 2010, according to a FEMA weekly status report on Recovery Act programs.
        2
         As of June 30, 2010, according to recipients Section 1512 quarterly report.
        3
         FEMA does not disburse funds to Amtrak because, according to the 9/11 Act, FEMA
        transferred the grant funds to the Department of Transportation for administration after it made
        the grant award. FEMA, however, still retains responsibility for monitoring grant activities.
        According to its June 30, 2010, Section 1512 quarterly report, Amtrak had expenditures of
        $300,724.

    Tracking Grant Program Performance
             FEMA’s May 15, 2009, Recovery Act Plan for TSGP named five key
             performance indicators, such as number of operation packages completed,
             that it would use to measure the effectiveness of grant performance. Since
             then, FEMA has identified nine additional performance measures, such as
             percentage of drawdowns (funds received) as a function of available
             funds, which it would use in conjunction with the original measures. The
             new measures are pending approval by senior FEMA management.
             According to FEMA, these additional measures will allow performance
             data to be collected at a more granular level and provide improved
             performance oversight of the grant program. (All measures are listed in
             appendix C.)


Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 

                      Agency for the Transit Security Grant Program


                                              Page 5
            FEMA, however, has not yet implemented a system to collect performance
            information or to report performance results. The GAO report on the
            TSGP identified this need for plans and systems to monitor the use of
            grant funds and assess the effectiveness of the grant program. Even
            though FEMA needs information on grant performance to measure overall
            program effectiveness, it has not yet implemented the GAO
            recommendations.

    Recommendation
            We recommend that the Assistant Administrator, Grant Programs, include
            mechanisms to collect data necessary to evaluate the performance
            measures for TSGP grants awarded with Recovery Act funds.

    Management Comments and OIG Analysis

                    FEMA Comments to the Recommendation:

                    Concur: FEMA said that it is moving “forward with a well-
                    established monitoring plan and the data collection tools necessary
                    to execute the plan.” FEMA also replied that it had developed and
                    recommended performance measures to be used for the TSGP; but
                    that the measures are still under review by FEMA leadership to
                    determine the most efficient way to incorporate them into the
                    TSGP guidance.

                    FEMA has also developed the input data for these measures and
                    incorporated it into the current electronic monitoring database
                    questions providing a process to collect data and gauge
                    performance. FEMA updates this database continuously and it is
                    currently used by program staff for the execution of program
                    monitoring.

                    OIG Analysis:

                    The response provided by FEMA describes actions that will be
                    sufficient to resolve this recommendation. However, we will track
                    the recommendation as unresolved and open until FEMA provides
                    us with the target dates for when the new measures will be
                    approved by its leadership and incorporated into guidance for the
                    TSGP, or evidence that the actions have been completed.




Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                      Agency for the Transit Security Grant Program
 


                                         Page 6
Appendix A
Purpose. Scope, and Methodology

                      Our objective was to determine (1) whether FEMA was
                      administering Recovery Act funds for the TSGP according to
                      program plans and requirements, and (2) the status of the TSGP
                      funds and projects. We:

                          �	 Reviewed applicable laws, regulations, policies, and
                             internal directives FEMA used to administer and monitor
                             the TSGP;
                          �	 Reviewed the approach for TSGP grantee selections to
                             determine if the approach was in accordance with the
                             program guidance;
                          �	 Reviewed the TSGP performance and monitoring metrics
                             to determine whether reporting was designed and
                             functioning in accordance with program guidelines and
                             requirements;
                          �	 Interviewed officials from FEMA’s Grant Program
                             Directorate to obtain information on the administration,
                             management, and oversight of the program; and
                          �	 Interviewed recipients of all 19 grants to obtain information
                             on grant status grants and on potential problem areas.

                      We conducted this audit from February through June 2010 in
                      Washington, DC, under the authority of the Inspector General Act
                      of 1978, as amended, and according to generally accepted
                      government auditing standards. Those standards require that we
                      plan and perform the audit to obtain sufficient, appropriate
                      evidence to provide a reasonable basis for our findings and
                      conclusions based on our audit objectives. We believe that the
                      evidence obtained provides a reasonable basis for the findings and
                      conclusions based on our audit objectives.




  Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                        Agency for the Transit Security Grant Program
 


                                           Page 7
Appendix B
Management Comments to the Draft Report

                                                                                    I).S. U<"",.",,<.,, Dr I'.",cla",l So"'.,.;,,·
                                                                                   WO C S''''<l. SW
                                                                                    lI'.,h;nj1''''''   rIC :O-ln




                                                        OCT 1 4 1010



                MEMORANDUM FOR:              Anne L. Richards
                                             Assisrant Inspector Generol
                                             Office of Inspector General

                FROM:
                                                 .
                                             DavId J. Kaufman~
                                                                A   1~".9~                                   ""-
                                             Director
                                             Office of roliey and rrogram Analysis

                SUBJECT:                     Comments on OIG Draft Report, Use ojAmerican
                                             Recovery GIld Reim-cstlllcn! Act Fu"ds by the Federal
                                             Emergellcy Managelllel1l Agency JOrille Transit Security
                                             Crrmts Program

                Thank you for the opportunity to review and comlllent on the Office of Inspector
                General's (OIG's) subject drllft audit report. As the Federal Emergency Mmlllgement
                Agency (FEMA) works toward refining its progrJms, the OIG 's independent analysis of
                program performance greatly benefits our ability to continuously improve our activities.

               FEMA concurs with the draft report's recommendation to ensure th(l/ the plans. policies.
               a"d systems impleme,,'ed in re~pol1se to 'lie GAO audit include mechanisms to calfect
               da/(lncccssary [0 eva(uate the pelfortl/allce lIIeaSIll-es for TSGP grants owanled with
               RecOl'e,y Act funds.

                FEMA continues to move for.vard with a well-established prOb'Tam monitoring plan and
                with the data collection tools necessary to execute the plan.

                As noted in your draft report, perfonnance measures have been developed and
                recommended for the Transit Security Grant Program (TSGP), in collaboration with our
                partners at the Transportation Security Administration (TSA). FEMA leadership is
                currently reviewing these measures and how best to incorporate them into the TSGr
                guidance.




  Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                        Agency for the Transit Security Grant Program
 


                                                  Page 8
Appendix B
Management Comments to the Draft Report

   Page 2


   The input data for these measures has been incorporated into the current electronic
   monitoring database questions providing a process to collect data and gauge perfonnance.
   This database is continuously updated and is in use by program staff for the execution of
   program monitoring. The FY 2010 monitoring plan for the TSGP outlines the
   requirements to monitor each of the Tier I transit agencies, including those that received
   American Recovery and Reinvestment Act (ARRA) funding. Monitoring visits and data
   collection are on-going.

   Measuring the TSGP and TSGP ARRA grant perfonnance is a top priority for FEMA
   leadership as we move forward into FY 2011. Emphasis on the collection of appropriate
   and meaningful perfonnance data drives the execution of the FY 2010 monitoring plan.

   Thank you again for the opportunity to comment on this draft report and we look forward
   to working with you on other issues as we both strive to improve FEMA.




  Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                        Agency for the Transit Security Grant Program
 


                                               Page 9
Appendix C
Transit Security Grant Program Performance Measures


                                          Description
No.                                     Performance Measure
1.        Number of completed grants for operational packages
2.        Number of grant-financed security patrols operating in the highest density
          population areas.
    3.    Number of operation deterrence projects completed
          Percentage of grants for which a closeout report was received within 3 months of
    4.    the end of the grant period
    5.    Number of vehicle/vessel security enhancement projects completed
    6.*   Percentage of projects completed
    7.*   Percentage change in closed-circuit television (CCTV) TSGP projects
          Percentage of funded transit systems participating in a Regional Transit Security
 8.*      Working Group
 9.*      Percentage of drawdowns (funds received)
10.*      Percentage of TSGP CCTV projects completed
11.*      Percentage of drawdowns as a function of available funds
12.*      Ratio of drawdowns to funding/expenditures for completed projects
13.*      Percentage of Biannual Strategy Implementation Reports submitted on time
14.*      Percentage of TSGP training projects completed
*
    New measure - pending senior management approval.




     Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                           Agency for the Transit Security Grant Program
 


                                              Page 10
Appendix D
Major Contributors

                      Roger LaRouche, Director
                      William Gillies, Audit Manager
                      Pamela Weatherly, Lead Program Analyst
                      Jason Kim, Auditor
                      Hortencia Francis, Program Analyst




  Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                        Agency for the Transit Security Grant Program
 


                                           Page 11
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Senior Counselor to the Secretary
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Acting Chief Procurement Officer
                      Director Office of Procurement Operations
                      DHS Component Liaison, FEMA

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




  Use of American Recovery and Reinvestment Act Funds by the Federal Emergency Management 
 

                        Agency for the Transit Security Grant Program
 


                                           Page 12
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
